  Department of Health and Human Services
                     OFFICE OF 

                INSPECTOR GENERAL 





 NATIONAL GOVERNMENT SERVICES 

CLAIMED ALLOWABLE ADMINISTRATIVE 

 COSTS FOR FISCAL YEARS 2008 AND 

  2009 UNDER MEDICARE CONTRACT 

              00450 



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov. 
                                            




                                                      Sheri L. Fulcher

                                                 Regional Inspector General 


                                                          June 2013 

                                                        A-05-11-00110 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                           INTRODUCTION 


 National Government Services claimed allowable administrative costs of $125,260,915
 for FY 2008 and 2009 under Medicare Part A contract 00450.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program through
contracts with private organizations that process and pay Medicare claims. The contracts with
CMS provide for the reimbursement of allowable administrative costs incurred in processing
Medicare claims. After the close of each Federal fiscal year (FY), contractors submit a Final
Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once CMS accepts the
cost proposal, the contractor and CMS negotiate a final settlement of allowable administrative
costs.

From October 1, 2007, through September 30, 2009, CMS contracted with National Government
Services (NGS) to process Part A claims in four states. CMS requested that we perform an audit of
the Part A cost proposal NGS submitted for this period.

OBJECTIVE

The objective of this review was to determine whether the administrative costs NGS reported on
its cost proposals for Federal FY 2008 and 2009 were allowable under the Medicare contract and
applicable Federal regulations.

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. CMS administers the
Medicare program through contractors, including Part A fiscal intermediaries and Part B carriers
that process and pay Medicare claims submitted by health care providers. Contracts between
CMS and the Medicare contractors define the functions to be performed and provide for the
reimbursement of allowable administrative costs incurred in the processing of Medicare claims.

Following the close of each Federal FY, contractors submit to CMS a cost proposal that reports
the Medicare administrative costs incurred during the year. The cost proposal and supporting
data provide the basis for the CMS contracting officer and contractor to negotiate a final
settlement of allowable administrative costs. When claiming costs, Medicare contractors must
follow cost reimbursement principles contained in Part 31 of the Federal Acquisition Regulations
(FAR) and other applicable criteria.

Until December 2006, United Government Services was the Medicare contractor under CMS’
Medicare contractor number 00450 and processed Medicare Part A claims for providers in four
states. In January 2007, NGS assumed Medicare operations of the United Government Services.
NGS processed Medicare claims for providers in four states and reported a total of $125,260,915
in administrative costs for FY 2008 and 2009.


                                                                                                    1
National Government Services Claimed Allowable Administrative Costs (A-05-11-00110)
HOW WE CONDUCTED THIS REVIEW

NGS claimed administrative costs to CMS totaling $127,572,663 during our audit period,
October 1, 2007, through September 30, 2009. We reviewed $125,260,915 in administrative
costs, but excluded $2,311,748 in pension costs that will be the subject of a separate review. We
reviewed 300 random sample items to determine if the costs claimed were reasonable, allowable
and in compliance with the FAR and other applicable criteria. The 300 sample items were
selected randomly from a population of three cost categories: salaries and wages; miscellaneous;
and overhead.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We limited our internal control review to those controls related to the recording and reporting of
costs on the cost proposals. We accomplished our objective through random testing. Appendix
A contains details of our audit scope and methodology, Appendix B contains details of the Final
Administrative Cost Proposals and Appendix C contains details of the statistical sampling
methodology.

We conducted fieldwork at the contractor operations facility in Indianapolis, IN from August
2011 through February 2013.

RESULTS OF REVIEW

The $125,260,915 in costs covered by our review was allowable under the terms of the Medicare
contract and applicable Federal Regulations. Accordingly, this report contains no
recommendations.




                                                                                                 2
National Government Services Claimed Allowable Administrative Costs (A-05-11-00110)
                                                                                      APPENDIX A 



                        APPENDIX A: SCOPE AND METHODOLOGY

SCOPE

NGS claimed administrative costs to CMS totaling $127,572,663 during our audit period from
October 1, 2007, through September 30, 2009. This total included pension costs of $2,311,748
that we did not review because they will be the subject of a separate review. We therefore
reviewed $125,260,915 in administrative costs. We limited our internal control review to those
controls related to the recording and reporting of costs on the cost proposals. We accomplished
our objective through random testing.

We conducted fieldwork at the contractor operations facility in Indianapolis, IN from August
2011 through February 2013.


METHODOLOGY

To accomplish our objective, we:

    	 reviewed applicable Medicare laws, regulations and guidelines;

    	 reviewed NGS’s contracts with CMS;

    	 reviewed NGS’s external audit reports for calendar years 2008 and 2009 and an Office of
       Inspector General audit report for Federal FY 2007;

    	 interviewed NGS officials regarding the cost accumulation processes for its cost proposal
       and cost allocation system;

    	 reconciled line item expenses on the cost proposal and cost classification report to NGS
       accounting records;

    	 tested costs for reasonableness, allowability, and allocablility by reviewing contracts and
       agreements and by randomly selecting journal entries, invoices, expense vouchers and
       reports, payroll journals, corporate bonus plans and personnel records; and

    	 reviewed total compensation paid to the five highest paid executives.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                                                                  3
National Government Services Claimed Allowable Administrative Costs (A-05-11-00110)
          APPENDIX B: FINAL ADMINISTRATIVE COST PROPOSALS WITH 

                  RECOMMENDED COSTS FOR ACCEPTANCE





                                                    Fiscal Year             Fiscal Year
             Cost Category                              2008                    2009         Total

  Salaries and Wages                                 $28,559,150            $16,640,771    $45,199,921
  Fringe Benefits                                     14,689,395             11,143,385     25,832,780
  Facilities or Occupancy                               5,272,577              2,831,791      8,104,368
  EDP Equipment                                         1,965,353              1,455,265      3,420,618
  Subcontracts                                                  0                      0              0
  Outside Professional Services                           407,700                462,085        869,785
  Telephone and Telegraph                                       0                      0              0
  Postage and Express                                   2,569,784              5,244,016      7,813,800
  Furniture and Equipment                                       0                      0             $0
  Materials and Supplies                                  482,291              1,741,268      2,223,559
  Travel                                                  213,433                111,595        325,028
  Return on Investment                                    176,122                159,335        335,457
  Miscellaneous                                         6,042,752                229,086      6,271,838
  Other                                               20,563,074             13,193,975     33,757,049
  Credits                                             (3,674,494)            (2,907,046)    (6,581,540)
  Forward Funding                                               0                      0              0

                Total Costs Claimed                   $77,267,137           $50,305,526    $127,572,663
   Less Pension Costs Not Reviewed                        967,124             1,344,624       2,311,748
             Total Costs Reviewed                     $76,300,013           $48,960,902    $125,260,915
       Recommended for Acceptance                     $76,300,013           $48,960,902    $125,260,915




                                                                                                     4
National Government Services Claimed Allowable Administrative Costs (A-05-11-00110)
               APPENDIX C: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of all salaries, miscellaneous and other administrative costs claimed
during FY 2008 and 2009 that were greater than or equal to $5.00. There are 31,836 line item
transactions totaling $104,994,193.

SAMPLING FRAME

NGS provided us an MS Excel spreadsheet that included all transactions from the general ledger
for 2008 and 2009. These transactions were sorted by month recorded and account activity. Any
account activities that had more than one transaction in a month were combined into one line.
The transactions were sorted and grouped by date and activity and sequentially numbered.

SAMPLE UNIT

The sampling unit was one line item’s transaction.

SAMPLE DESIGN

Our sample design consisted of a stratified random sample. The strata were as follows:

Stratum Cost Category                     Number of line        Dollar Value of
                                          items                 Line Items
  1     Salaries and Wages                       10,382              51,203,071
  2     Miscellaneous                             2,984              16,340,943
  3     Other                                    18,470              37,450,179
Total =                                          31,836              104,994,193

SAMPLE SIZE

The sample size consisted of 300 sample items, 100 per stratum.

SOURCE OF RANDOM NUMBERS

Random numbers were generated using the OAS Statistical Sampling software RAT-STATS
2010, Version 3.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the frame from 1 to 10,382 for stratum 1, and
from 1 to 2,984 for stratum 2 and 1 to 18,470 for stratum 3. We generated 100 random numbers
for each stratum. We then selected the corresponding frame items. A list of the sample units
was created using MS Excel.



                                                                                                 5
National Government Services Claimed Allowable Administrative Costs (A-05-11-00110)
ESTIMATION METHODOLOGY

Using the HHS-OIG-OAS RAT-STATS 2010, version 3, Variable Appraisal Program for
stratified samples, we estimated the amount which was not allowable, allocable, or supported,
pursuant to the NGS Medicare Part A contract with CMS.




                                                                                                6
National Government Services Claimed Allowable Administrative Costs (A-05-11-00110)
